                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                          . OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM

  Case Number: A09090076                                                                     Page 1 of 1



                  OIG conducted an investigation to detennine whether a vacancy announcement l that was
          posted and ultimately canceled, and the process by which the announcement was created and posted,
          violated any federal statute or regulations. Upon investigation, OIG determined that no federal
          statute or regulation was violated. During the course of the investigation, NSF OIG noted two
          deficiencies in NSF's management of personnel details and personnel annual evaluation records, and
          issued two recommendations to NSF, which promptly took action based. upon OIG's
          recommendations.

                    Accordingly, this case is closed.




NSF OIG Fohn 2 (11102)
